                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORAlrJDUM

Case Number: A09040034                                                                  Page 1 of 1



            NSF OIG received an allegation regarding a potential false statement included in the
     subject's' biographical sketch (CV) of his proposal.2 We contacted the subject about the matter.
     The subject said he made a typographical error which he would correct on future CVs. Due to the de
     minimus amount of misstated material, we will send the subject a huestionable practices letter.

            Accordingly, this case is closed and no further action will be taken.
